U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

December 14, 2020

Joel Latrent Fletcher v. USA,
S.Ct No. 20-6388

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
23, 2020 and placed on the docket on November 19, 2020. The government’s response is due on
December 21, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 20, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6388
FLETCHER, JOEL LATRENT
USA

CHRISTOPHER A. CURTIS
ASSISTANT FEDERAL PUBLIC DEFENDER
FEDERAL PUBLIC DEFENDERS OFFICE
819 TAYLOR STREET
ROOM 9A 10
FORT WORTH, TX 76102
817-978-2753
CHRIS_CURTIS@FD.ORG

